June 13, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Medicare Contractors Lacked Controls To Prevent Millions in Improper
                Payments for High Utilization Claims for Home Blood-Glucose Test Strips
                and Lancets (A-09-11-02027)


The attached final report provides the results of our reviews of Medicare claims for home
blood-glucose test strips and lancets at four durable medical equipment Medicare administrative
contractors.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-09-11-02027 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICARE CONTRACTORS LACKED
CONTROLS TO PREVENT MILLIONS
  IN IMPROPER PAYMENTS FOR
 HIGH UTILIZATION CLAIMS FOR
    HOME BLOOD-GLUCOSE
   TEST STRIPS AND LANCETS




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-09-11-02027
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers home blood-glucose test strip and lancet supplies (test strips and lancets) that
physicians prescribe for diabetics. The Centers for Medicare & Medicaid Services (CMS)
contracts with four durable medical equipment Medicare administrative contractors (contractor)
to process and pay Medicare Part B claims for test strips and/or lancets. The amount allowed for
payment is equal to the lesser of the Medicare fee schedule amount or the amount charged by a
durable medical equipment supplier (supplier). Medicare pays the beneficiary or the supplier the
amount allowed for payment, less the beneficiary share (i.e., deductibles and coinsurance).

The quantity of test strips and lancets that Medicare covers depends on the beneficiary’s usual
medical needs. Medicare utilization guidelines allow up to 100 test strips and 100 lancets every
month (i.e., the quantity for a testing frequency of approximately 3 times per day) for insulin-
treated diabetics. The guidelines also allow up to 100 test strips and 100 lancets every 3 months
(i.e., the quantity for a testing frequency of approximately 1 time per day) for non-insulin-treated
diabetics. To be reimbursed for a claim for any quantity of test strips and/or lancets, the supplier
is required to maintain (1) a physician order containing the items to be dispensed, the specific
frequency of testing, and the physician’s signature with the date and (2) proof of delivery. The
supplier may refill an order only when the beneficiary has nearly exhausted the previous supply
(approximately 5 days before exhaustion) and specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceed utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

This report summarizes the results of our individual reviews of the 4 contractors that processed
claims for test strips and/or lancets for Jurisdictions A through D, which included all 50 States,
5 territories, and the District of Columbia. Those reviews determined whether high utilization
claims for test strips and/or lancets that the contractors allowed for payment were supported in
accordance with Medicare documentation requirements. This report also provides the results of
our analyses of (1) testing frequencies ordered by physicians for unsupported high utilization
claims (by treatment type, i.e., non-insulin-treated and insulin-treated beneficiaries) and
(2) unsupported claims with overlapping service dates for the same beneficiary.

The contractors allowed for payment $1.2 billion in Medicare Part B claims for test strips and/or
lancets for calendar year (CY) 2007. We focused our reviews on high utilization claims. To
identify these claims, we analyzed the information submitted by suppliers on the claim forms.
We did not verify the accuracy of the claims information. We estimated that the contractors
allowed for payment a total of $484.3 million for the claims that we identified as high utilization
claims.


                                                 i
OBJECTIVE

Our objective was to summarize the results of our individual reviews of the four contractors that
processed claims for test strips and/or lancets for Jurisdictions A through D.

SUMMARY OF FINDINGS

Of the 400 sampled claims for test strips and/or lancets that we reviewed at the 4 contractors,
97 claims were supported in accordance with Medicare documentation requirements. However,
each of the remaining 303 claims (76 percent) had 1 or more deficiencies:

   •   The quantity of supplies that exceeded utilization guidelines was not supported with
       documentation that specified the reason for the additional supplies, the actual frequencies
       of testing, or the treating physicians’ evaluations of the patients’ diabetic control within
       6 months before ordering the supplies (222 of 400 claims, or 56 percent).

   •   There was no supporting documentation that indicated refill requirements had been met
       (117 of 400 claims, or 29 percent).

   •   Physician orders were missing or incomplete (90 of 400 claims, or 23 percent).

   •   Proof-of-delivery records were missing (33 of 400 claims, or 8 percent).

For CY 2007, based on our analyses of our individual samples of the four contractors, we
estimated that the contractors improperly allowed for payment a total of approximately
$271 million in claims that we identified as high utilization claims. Of this amount, we
estimated that the contractors improperly paid a total of approximately $209 million to suppliers.

The contractors made improper payments to suppliers because the contractors did not have
controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements. Specifically, the contractors did not have system edits to identify,
and review when necessary, high utilization claims. In addition, the contractors did not have
system edits to identify claims with overlapping service dates for the same beneficiary. This
billing pattern caused the contractors to allow payment for claims when beneficiaries had not
nearly exhausted previously dispensed test strips and/or lancets.

The contractors could have saved Medicare an estimated $209 million for CY 2007 if they had
had controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements. Adequate controls are important to program integrity because they
help to prevent improper payments to suppliers for test strips and lancets. Unless the contractors
implement system edits to identify for further review high utilization claims and claims that have
overlapping service dates for the same beneficiary, they are likely to continue to make improper
payments to suppliers.




                                                ii
RECOMMENDATIONS

We recommend that CMS:

   •   ensure that contractors implement system edits recommended in our individual reports to:

       o identify high utilization claims for test strips and/or lancets and develop cost-
         effective ways of determining which claims should be further reviewed for
         compliance with Medicare documentation requirements and

       o identify claims for test strips and/or lancets that have overlapping service dates for
         the same beneficiary;

   •   ensure that contractors are enforcing Medicare documentation requirements for claims for
       test strips and/or lancets by monitoring the contractors’ (1) identification of suppliers
       with a high volume of high utilization claims, (2) performance of prepayment reviews of
       those suppliers, and (3) referrals of suppliers to the Office of Inspector General or CMS
       for further review or investigation when necessary; and

   •   consider the results of our reviews when developing and evaluating coverage and
       reimbursement policies related to test strips and lancets.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its written comments on our draft report, CMS concurred with all of our recommendations.
CMS’s comments are included in their entirety as Appendix B.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Program ................................................................................................1
              Durable Medical Equipment, Prosthetics, Orthotics, and Supplies .....................1
              National and Local Coverage Determinations .....................................................2
              Home Blood-Glucose Test Strip and Lancet Supplies ........................................2
              Medicare Documentation Requirements for Test Strips and Lancets .................3
              Office of Inspector General Audits of Test Strips and Lancets ...........................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................4
               Objective ..............................................................................................................4
               Scope ....................................................................................................................4
               Methodology ........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................5

          UNSUPPORTED CLAIMS BY DEFICIENCY TYPE ..................................................5
               Lack of Documentation for Quantities in Excess of Utilization Guidelines .......6
               Lack of Documentation To Support Refills of Supplies ......................................7
               Missing or Incomplete Physician Orders ............................................................7
               Missing Proof-of-Delivery Records .....................................................................7

          UNSUPPORTED CLAIMS BY JURISDICTION ..........................................................8

          TESTING FREQUENCIES ORDERED BY PHYSICIANS FOR UNSUPPORTED
           HIGH UTILIZATION CLAIMS (BY TREATMENT TYPE) .....................................8

          UNSUPPORTED CLAIMS WITH OVERLAPPING SERVICE DATES
           FOR THE SAME BENEFICIARY ............................................................................10
               Multiple Suppliers..............................................................................................11
               Single Supplier ...................................................................................................11

          EFFECT OF UNALLOWABLE CLAIMS ...................................................................12

          LACK OF CONTROLS ................................................................................................13

          INTERNAL CONTROL AND POLICY CHANGES RESULTING FROM
            AUDIT REPORTS TO CONTRACTORS .................................................................13
               Internal Control Changes ...................................................................................13
               Policy Changes...................................................................................................14

          CONCLUSION ..............................................................................................................14



                                                                    iv
    RECOMMENDATIONS ...............................................................................................15

    CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..................15

APPENDIXES

    A: MEDICARE DOCUMENTATION REQUIREMENTS

    B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                        v
                                               INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Durable Medical Equipment, Prosthetics, Orthotics, and Supplies

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). DMEPOS includes
items such as wheelchairs, hospital beds, oxygen tents, and medical supplies. Section
1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item be reasonable
and necessary for the diagnosis or treatment of illness or injury or improve the functioning of a
malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(contractor) to process and pay Medicare Part B claims for DMEPOS. According to the
Statement of Work, the contractors’ responsibilities included, but were not limited to,
(1) receiving Medicare Part B claims from durable medical equipment suppliers (supplier) and
beneficiaries within their jurisdictions, 1 (2) performing edits 2 on these claims to determine
whether they were complete and reimbursable, (3) calculating Medicare payment amounts and
remitting payments to the appropriate parties, and (4) educating suppliers on Medicare
requirements and billing procedures.

The Statement of Work was modified to require the contractors to perform medical reviews as of
March 1, 2008. Medical reviews include the collection of information and review of medical
records to ensure that Medicare pays only for services that meet all Medicare coverage, coding,
and medical necessity requirements. The amount allowed for payment is equal to the lesser of
the Medicare fee schedule amount or the amount charged by a supplier. Medicare pays the
beneficiary or the supplier the amount allowed for payment, less the beneficiary share (i.e.,
deductibles and coinsurance).




1
 Each contractor is responsible for processing claims for specific States and territories. Suppliers must submit
claims to the contractor that serves the State or territory in which the Medicare beneficiary permanently resides.
2
 An edit is programming within the standard claims processing system that selects certain claims; evaluates or
compares information on the selected claims or other accessible sources; and, depending on the evaluation, takes
action on the claims, such as paying them in full, paying them in part, or suspending them for manual review.


                                                          1
National and Local Coverage Determinations

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered.
Contractors are required to follow NCDs.

A Local Coverage Determination (LCD) is a decision that a contractor might make to cover a
particular item or service on a contractorwide basis pursuant to section 1862(a)(1)(A) of the Act.
Contractors may establish or adopt LCDs when there is no NCD or when they need to further
define an NCD. LCDs must be consistent with all statutes, rulings, and regulations and national
coverage, payment, and coding policies.

Home Blood-Glucose Test Strip and Lancet Supplies

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strip and lancet supplies (test strips and lancets) that physicians
prescribe for diabetics, whether they are insulin-treated or non-insulin-treated. The patient, using
a disposable sterile lancet, draws a drop of blood, places it on a test strip, and inserts the strip
into a home blood-glucose monitor to obtain a reading of the blood-sugar level.

The NCD for home blood-glucose monitors specifies coverage of test strips and lancets for
patients who meet certain conditions and use home blood-glucose monitors to better control their
glucose levels by frequently checking those levels and contacting their attending physicians for
advice and treatment. 3 However, the NCD does not specify utilization guidelines and
documentation requirements for test strips and lancets.

To establish utilization guidelines and documentation requirements for test strips and lancets,
contractors either established or adopted LCDs, 4 which state that the quantity of test strips and
lancets that Medicare covers depends on the beneficiary’s usual medical needs. The LCDs for
the contractors further state that Medicare covers up to 100 test strips and 100 lancets every
month (i.e., the quantity for a testing frequency of approximately 3 times per day) for insulin-
treated diabetics. The LCDs also state that Medicare covers up to 100 test strips and 100 lancets
every 3 months (i.e., the quantity for a testing frequency of approximately 1 time per day) for
non-insulin-treated diabetics. 5




3
 Medicare National Coverage Determinations Manual, Pub. No. 100-03, chapter 1, section 40.2, effective
June 19, 2006.
4
 Jurisdictions A and B adopted LCD L11530, Jurisdiction C adopted LCD L11520, and Jurisdiction D adopted
LCD L196. Each LCD contains the same documentation requirements.
5
    Medicare considers 50 test strips as 1 unit and 100 lancets as 1 unit.


                                                              2
Medicare Documentation Requirements for Test Strips and Lancets

To be reimbursed for a claim for any quantity of test strips and/or lancets, the supplier is required
to maintain (1) a physician order containing the items to be dispensed, the specific frequency of
testing, and the physician’s signature with the date and (2) proof of delivery. The supplier may
refill an order only when the beneficiary has nearly exhausted the previous supply, which is
approximately 5 days before the end of usage for the current product. In addition, the supplier
may refill an order only when the beneficiary specifically requests that the supplies be dispensed.

There are additional requirements for reimbursement of a claim for a quantity of test strips
and/or lancets that exceeds utilization guidelines (high utilization claim). Specifically, there
must be documentation in the beneficiary’s medical records supporting the specific reason for
the additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines. (See Appendix A.)

Office of Inspector General Audits of Test Strips and Lancets

This report summarizes the results of our individual reviews of the 4 contractors that processed
claims for test strips and/or lancets for Jurisdictions A through D, which included all 50 States,
5 territories, and the District of Columbia. Those reviews determined whether high utilization
claims for test strips and/or lancets that the contractors allowed for payment were supported in
accordance with Medicare documentation requirements. The contractors were NHIC, Corp.
(NHIC), for Jurisdiction A; National Government Services, Inc. (NGS), for Jurisdiction B;
CIGNA Government Services, LLC (CGS), for Jurisdiction C; 6 and Noridian Administrative
Services, LLC (Noridian), for Jurisdiction D. The contractors allowed for payment $1.2 billion
in Medicare Part B claims for test strips and/or lancets for CY 2007.

We issued individual reports to each of the four contractors. Table 1 provides information on
these reports.
                           Table 1: Reports Issued to Contractors

                      Jurisdiction      Report Number            Report Issuance Date


                            A            A-09-08-00043          August 30, 2010

                            B            A-09-08-00044          February 17, 2011

                            C            A-09-08-00045          January 21, 2011

                            D            A-09-08-00046          February 4, 2011


6
 Jurisdiction C’s claims for test strips and/or lancets for calendar year (CY) 2007 were processed by Palmetto GBA,
LLC, before CGS began processing these claims on June 1, 2007.


                                                        3
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to summarize the results of our individual reviews of the four contractors that
processed claims for test strips and/or lancets for Jurisdictions A through D.

Scope

We focused our review on high utilization claims for test strips and/or lancets for CY 2007. To
identify these claims, we analyzed the information submitted by suppliers on the Medicare claim
forms. We did not verify the accuracy of the claims information. We estimated that the four
contractors allowed for payment a total of $484.3 million for the claims that we identified as
high utilization claims.

We did not review the overall internal control structure of the contractors. We focused on those
internal controls that were significant to the objective of our audit.

We completed our individual reviews in August 2010. We conducted fieldwork at the
contractors’ offices in Hingham, Massachusetts, and Los Angeles, California, for Jurisdiction A;
Indianapolis, Indiana, for Jurisdiction B; Nashville, Tennessee, for Jurisdiction C; and Fargo,
North Dakota, for Jurisdiction D.

Methodology

To accomplish our objective at each of the four contractors, we reviewed applicable Federal
laws, regulations, and guidance and the LCD adopted by each contractor. We also reviewed the
contractors’ policies and procedures for processing Medicare claims for test strips and/or lancets
and interviewed contractor officials to obtain an understanding of those procedures.

We randomly selected and reviewed a sample of 100 high utilization claims 7 (error sample) for
each of the 4 contractors to determine whether Medicare documentation requirements had been
met and to estimate the effect of noncompliance. To determine whether each of the sampled
claims was supported in accordance with Medicare documentation requirements, we obtained
and reviewed medical records and other documentation.

To estimate the total number and amount of high utilization claims that were allowed for
payment, we randomly selected a sample of 500 Medicare beneficiaries (frame sample) for each
of the 4 contractors. For each sampled beneficiary, we obtained all the beneficiary’s claims for
test strips and/or lancets and analyzed the claim information submitted by suppliers to determine
the number of high utilization claims. Based on our analyses of our error and frame samples, we
estimated the amounts that each contractor allowed for payment and paid to suppliers for claims
that were not supported in accordance with Medicare documentation requirements. (See the

7
  During our audit, we determined that some claims we had identified as high utilization claims were in fact within
the Medicare utilization guidelines based on our review of the beneficiaries’ medical records and additional analysis
of the claims information. We did not remove these claims from the sample.


                                                          4
individual reports issued to the four contractors for descriptions of our sample design and
methodology.)

For this report, we summarized the results of the individual reports. Further, we analyzed testing
frequencies ordered by physicians for unsupported high utilization claims (by treatment type, i.e.,
non-insulin-treated and insulin-treated beneficiaries) and unsupported claims with overlapping
service dates for the same beneficiary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the 400 sampled claims for test strips and/or lancets that we reviewed at the 4 contractors,
97 claims were supported in accordance with Medicare documentation requirements. However,
each of the remaining 303 claims (76 percent) had 1 or more deficiencies. For CY 2007, based
on our analyses of our individual samples of the four contractors, we estimated that the
contractors improperly allowed for payment a total of approximately $271 million in claims that
we identified as high utilization claims. Of this amount, we estimated that the contractors
improperly paid a total of approximately $209 million to suppliers.

The contractors made improper payments to suppliers because the contractors did not have
controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements. Specifically, the contractors did not have system edits to identify,
and review when necessary, high utilization claims. In addition, the contractors did not have
system edits to identify claims with overlapping service dates for the same beneficiary. This
billing pattern caused the contractors to allow payment for claims when beneficiaries had not
nearly exhausted previously dispensed test strips and/or lancets.

UNSUPPORTED CLAIMS BY DEFICIENCY TYPE

Table 2 summarizes the deficiencies in the 400 sampled claims for test strips and/or lancets and
the number of claims that contained each type of deficiency. Appendix A provides details on
Medicare’s documentation requirements.




                                                 5
                          Table 2: Summary of Deficiencies in Sampled Claims


                         Type of Deficiency                                No. of Claims With Deficiencies 8

    Lack of Documentation for Quantities in Excess of
                                                                                              222
    Utilization Guidelines

    Lack of Documentation To Support Refills of Supplies                                      117


    Missing or Incomplete Physician Orders                                                     90


    Missing Proof-of-Delivery Records                                                          33


Lack of Documentation for Quantities in Excess of Utilization Guidelines

For a quantity of test strips and lancets that exceed utilization guidelines, Medicare requires
supporting documentation that indicates the specific reason for the additional supplies, the actual
frequency of testing, and the treating physician’s evaluation of the patient’s diabetic control
within 6 months before ordering the supplies.

Of the 400 sampled claims, 222 claims (56 percent) lacked the documentation required to
support a quantity of supplies in excess of utilization guidelines: 9

      •    For 187 of the 222 claims, the beneficiaries’ medical records did not specify a reason for
           the additional supplies.

      •    For 143 of the 222 claims, neither the physicians’ nor the suppliers’ records documented
           that the beneficiaries were testing at frequencies that corroborated the quantity of supplies
           dispensed.

      •    For 20 of the 222 claims, the beneficiaries’ medical records did not indicate that the
           treating physicians evaluated the patients’ diabetic control within 6 months before
           ordering the quantity of supplies in excess of utilization guidelines.




8
    The total exceeds 303 because 182 of the 303 claims contained more than 1 deficiency.
9
  Our analysis of the claims for test strips and/or lancets that lacked the required documentation to support a quantity
of supplies in excess of utilization guidelines is in the section entitled “Testing Frequencies Ordered by Physicians
for Unsupported High Utilization Claims (by Treatment Type).”


                                                           6
Lack of Documentation To Support Refills of Supplies

For refills of test strips and lancets, a supplier may refill an order only when the beneficiary has
nearly exhausted the previously dispensed supplies. In addition, the beneficiary or the
beneficiary’s caregiver must specifically request the refill of test strips and lancets before the
supplier dispenses supplies to the beneficiary.

For 117 of the 400 sampled claims (29 percent), suppliers did not have documentation to support
that refill requirements had been met:

       •   For 91 of the 117 claims, suppliers dispensed test strips and/or lancets when the
           beneficiaries had not nearly exhausted the previously dispensed supplies. 10

       •   For 36 of the 117 claims, the beneficiaries or the beneficiaries’ caregivers had not
           specifically requested the refills before the supplies were dispensed.

Missing or Incomplete Physician Orders

A supplier must have an order from the treating physician before dispensing test strips and
lancets to a beneficiary. When a supplier dispenses items based on a verbal order, the supplier
must have a written order in its records before submitting a claim to the contractor.

For 90 of the 400 sampled claims (23 percent), suppliers submitted claims when physician orders
were missing or incomplete:

       •   For 58 of the 90 claims, suppliers did not have written physician orders. Specifically,
           suppliers either did not provide copies of the written orders or had documentation of
           verbal orders from the treating physicians but no written orders.

       •   For 32 of the 90 claims, suppliers had physician orders without required elements,
           including testing frequencies (the most prevalent deficiency), treating physicians’
           signatures, dates of signatures, and items to be dispensed. 11

Missing Proof-of-Delivery Records

Suppliers are required to maintain in their files for 7 years proof-of-delivery documentation of
supplies provided to Medicare beneficiaries.

For 33 of the 400 sampled claims (8 percent), suppliers did not maintain proof of delivery.
When we requested delivery records for the 33 claims, the suppliers did not provide proof of


10
  Our analysis of the claims for test strips and/or lancets dispensed when the beneficiaries had not nearly exhausted
the previously dispensed supplies is in the section entitled “Unsupported Claims With Overlapping Service Dates for
the Same Beneficiary.”
11
     Of the 32 claims, 4 claims had more than 1 deficiency related to incomplete physician orders.


                                                            7
delivery or provided printouts from their computerized dispensing systems containing dispensing
information that did not correspond to the sampled claims.

UNSUPPORTED CLAIMS BY JURISDICTION

Table 3 summarizes by jurisdiction the numbers of deficiencies by type.

                        Table 3: Summary of Deficiencies in Sampled Claims

                                         Lack of
                                     Documentation          Lack of                          Missing
                                    for Quantities in    Documentation       Missing or       Proof-      Total No. of
                                        Excess of         To Support         Incomplete        of-          Claims
                No. of Sampled         Utilization         Refills of         Physician      Delivery        With
Jurisdiction        Claims             Guidelines           Supplies           Orders        Records      Deficiencies


      A               100                  55                   27                24             7             70


      B               100                  61                   36                24             7             83


      C               100                  45                   42                22           12              79


      D               100                  61                   12                20             7             71


     Total            400                 222                  117                90           33            303


In the 4 jurisdictions, the number of claims with deficiencies ranged from 70 to 83. The primary
deficiency was lack of documentation for quantities in excess of utilization guidelines.

TESTING FREQUENCIES ORDERED BY PHYSICIANS FOR UNSUPPORTED
HIGH UTILIZATION CLAIMS (BY TREATMENT TYPE)

We have also analyzed the testing frequencies ordered by physicians for the 222 claims that
lacked documentation for quantities in excess of utilization guidelines. 12 We have organized the
frequencies by treatment type (i.e., non-insulin-treated and insulin-treated beneficiaries). We
provide this information for decisionmakers, who may want to use it when revising policies on
test strips and lancets.


12
   Medicare requires supporting documentation that specifies the reason for the additional supplies, the actual
frequency of testing, and the treating physician’s evaluation of the patient’s diabetic control within 6 months before
ordering the supplies.


                                                          8
Of the 400 sampled claims, 319 claims were for test strips and/or lancets for non-insulin-treated
beneficiaries, and 81 claims were for insulin-treated beneficiaries. 13

       •   Of the 319 sampled claims for non-insulin-treated beneficiaries, 186 claims (58 percent)
           lacked the documentation required to support quantities in excess of utilization
           guidelines.

       •   Of the 81 sampled claims for insulin-treated beneficiaries, 36 claims (44 percent) lacked
           the documentation required to support quantities in excess of utilization guidelines.

Graph 1 illustrates the range of daily testing frequencies ordered by physicians for
non-insulin-treated beneficiaries for the 186 claims that lacked documentation for quantities in
excess of utilization guidelines. For non-insulin-treated beneficiaries, Medicare’s documentation
requirements for quantities in excess of utilization guidelines apply when the ordered frequency
of testing is more than once per day.

For a large number of the 186 claims—77—the physicians ordered testing from 3 to 8 times per
day. However, we found that for these 77 claims, the physicians ordered testing frequencies that
substantially exceeded utilization guidelines without documenting the reasons for ordering the
high frequencies.

For 79 of the claims, the physicians ordered testing twice per day, but the claims lacked the
documentation required to support testing more than once per day. Based on our analysis of the
claims information, we determined that these claims were for quantities of test strips and/or
lancets in excess of utilization guidelines.

For a smaller number of claims—30—there were no physician orders or the orders did not
indicate testing frequencies. Based on our analysis of the claims information, we determined that
these claims were for quantities of test strips and/or lancets in excess of utilization guidelines.

              Graph 1: Range of Daily Testing Frequencies Ordered by Physicians for
                               Non-Insulin-Treated Beneficiaries




13
     We identified non-insulin-treated and insulin-treated beneficiaries based on the claims information.


                                                            9
Graph 2 illustrates the range of daily testing frequencies that physicians ordered for insulin-
treated beneficiaries for the 36 claims that lacked the documentation required for quantities of
test strips in excess of utilization guidelines. For insulin-treated beneficiaries, those
requirements apply when the ordered testing frequencies are more than three times per day.

Of the 36 claims, a majority—27—had physician orders for testing 4 to 12 times per day.
However, we found that for these 27 claims, the physicians ordered testing frequencies that
substantially exceeded utilization guidelines without documenting the reason for ordering the
high frequencies.

For one of the claims, there was a physician order for testing twice per day, which is within the
guidelines for an insulin-treated patient. The claims information indicated that the beneficiary
was insulin-treated. However, based on the claims information, we determined that the claim
was for a quantity of test strips for testing many times more than three times per day, which
exceeds utilization guidelines.

Eight of the thirty-six claims did not have physician orders or did not indicate testing frequencies
on the orders. Based on our analysis of the claims information, we determined that these claims
were for a quantity of test strips and/or lancets for testing many times more than three times per
day, which exceeds utilization guidelines.

          Graph 2: Range of Daily Testing Frequencies Ordered by Physicians for
                             Insulin-Treated Beneficiaries




UNSUPPORTED CLAIMS WITH OVERLAPPING SERVICE DATES
FOR THE SAME BENEFICIARY

We have also analyzed the number of suppliers for each of the 91 unsupported high utilization
claims with overlapping service dates for the same beneficiary. We provide this information for
decisionmakers, who may want to use it when revising policies on test strips and lancets.

For 91 of the 400 sampled claims (23 percent), suppliers dispensed test strips and/or lancets
when the beneficiaries had not nearly exhausted the previously dispensed supplies.




                                                10
Graph 3 illustrates the number of sampled claims with overlapping service dates 14 for which a
single supplier or multiple suppliers dispensed test strips and/or lancets to the same beneficiary. 15
Specifically, as many as six suppliers submitted claims with overlapping service dates for the
same beneficiary; as a result, claims were allowed for payment before the beneficiary had nearly
exhausted the previously dispensed supplies.

         Graph 3: Claims With Overlapping Service Dates and the Number of Suppliers




Multiple Suppliers

For 56 of the 91 claims with overlapping service dates, multiple suppliers dispensed test strips
and/or lancets to the same beneficiary. 16 In one instance, two suppliers billed Medicare for
claims with overlapping service dates for the same beneficiary. The physician ordered a testing
frequency of three times per day for an insulin-treated patient. The supplier for the selected
sampled claim dispensed six units of test strips and submitted a claim to a contractor for service
dates September 24 through December 23, 2007. 17 Another supplier dispensed five units of test
strips and submitted a claim to the contractor for the same beneficiary for service dates
September 17 through December 8, 2007. The contractor allowed payment for both claims.

Single Supplier

For 36 of the 91 claims with overlapping service dates, single suppliers dispensed test strips
and/or lancets to the same beneficiary. In one instance, a physician ordered a testing frequency
of four times per day for an insulin-treated patient. The supplier for the selected sampled claim
dispensed one unit of test strips on May 24, 2007. The same supplier had previously dispensed

14
  The sum of the claims in graph 3 for multiple and single suppliers does not equal 91 because 1 claim had
overlapping service dates for both a single supplier and multiple suppliers that dispensed test strips and/or lancets for
the same beneficiary.
15
  All claims with overlapping service dates for a single beneficiary were submitted to the contractor responsible for
the jurisdiction in which the beneficiary resided.
16
  We determined the overlapping service dates based on our review of the beneficiaries’ medical records and
additional analysis of the claims information.
17
     We obtained service dates from the claims information.



                                                          11
four units of test strips on May 6, 2007, which, based on a testing frequency of four times per
day, would have been exhausted around June 25, 2007. The supplier dispensed the test strips for
the sampled claim more than 30 days before the beneficiary would have exhausted the previously
dispensed supplies. Additionally, the same supplier had also dispensed four units of test strips
on April 5, 2007, which, based on a testing frequency of four times per day, would have been
exhausted around May 25, 2007 (1 day after the supplies for the sampled claim were dispensed).
Graph 4 illustrates the number of units of test strips that the beneficiary received from the single
supplier.

                      Graph 4: Claims With Overlapping Service Dates
                       for Test Strips Dispensed by a Single Supplier




EFFECT OF UNALLOWABLE CLAIMS

Of the 400 sampled claims for test strips and/or lancets that we reviewed, 303 claims were not
supported in accordance with Medicare documentation requirements. As a result, the four
contractors allowed $29,039 in Medicare Part B payments for unallowable claims. Of this
amount, the contractors improperly paid $22,385 to suppliers.

For CY 2007, based on our analysis of each sample, we estimated that the contractors improperly
allowed for payment a total of $270,961,017 in claims for test strips and/or lancets that we
identified as high utilization claims. Of this amount, we estimated that the contractors
improperly paid a total of $208,966,252 to suppliers.

Table 4 summarizes by jurisdiction the estimates of the amounts allowed for payment and paid to
suppliers for high utilization claims that were not supported in accordance with Medicare
documentation requirements.




                                                12
                         Table 4: Estimates of Unallowable Amounts


          Jurisdiction Amount Allowed for Payment Amount Paid to Suppliers


               A                   $49,214,902                      $39,206,181


               B                    56,221,550                        42,227,372


               C                   125,018,182                        96,633,764


               D                    40,506,383                        30,898,935


             Total                $270,961,017                     $208,966,252



LACK OF CONTROLS

The contractors made improper payments to suppliers because the contractors did not have
controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements. Specifically, the contractors did not have system edits to identify,
and review when necessary, high utilization claims. In addition, the contractors did not have
system edits to identify claims with overlapping service dates for the same beneficiary. This
billing pattern caused the contractors to allow payment for claims when beneficiaries had not
nearly exhausted previously dispensed test strips and/or lancets.

INTERNAL CONTROL AND POLICY CHANGES RESULTING FROM
AUDIT REPORTS TO CONTRACTORS

Internal Control Changes

We issued individual reports to each of the four contractors with recommendations for corrective
actions. In response, the contractors stated that they had taken or planned to take corrective
actions, including:

   •   implementation of system edits to identify high utilization claims for test strips and/or
       lancets,

   •   implementation of system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficiary, and


                                                13
       •   performance of prepayment reviews of suppliers with high utilization claims for test
           strips and/or lancets.

NHIC stated that it had established internal processes and referral procedures to alert the
program safeguard contractor (PSC) of a potentially abusive situation. 18 NGS stated that it
referred suppliers to the PSC if fraudulent behavior was suspected. CGS stated that it had a
process in place for referring suppliers of diabetic testing supplies to the zone program integrity
contractors (ZPIC). 19

The four contractors stated that they had improved education of suppliers, prescribing
physicians, and/or beneficiaries by reinforcing the Medicare documentation requirements for
claims for test strips and/or lancets. These efforts included issuing letters to prescribing
physicians to educate them concerning Medicare policy. In addition, NGS indicated that it sent
letters to beneficiaries who received test strips and lancets from three or more suppliers because
beneficiaries with multiple suppliers were very likely to have claims with overlapping dates of
service. The letter informed those beneficiaries that they should be receiving test strips and
lancets from one supplier.

Policy Changes

CGS stated that medical directors examined the LCDs to determine whether additional
safeguards could be implemented to prevent improper payments and accommodate additional
automated editing of claims for diabetic testing supplies. Noridian stated that a change to its
LCD was in process and, upon finalization, would improve the contractor’s ability to enforce
well-defined limits for the utilization of test strips and lancets. The revised LCDs for all four
contractors, effective August 2, 2011, made changes to the refill requirements for test strips and
lancets. One new requirement is that the supplier must document the remaining quantity of each
item that the beneficiary has on hand before delivering the supplies.

CONCLUSION

The contractors could have saved Medicare an estimated $208,966,252 for CY 2007 if they had
had controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements. Adequate controls are important to program integrity because they
help to prevent improper payments to suppliers for test strips and lancets. Unless the contractors
implement system edits to identify for further review high utilization claims and claims that have
overlapping service dates for the same beneficiary, they are likely to continue to make improper
payments to suppliers.

We plan to perform additional reviews to determine the effectiveness of the contractors’ system
edits for identifying claims for test strips and/or lancets that have overlapping service dates for
the same beneficiary.

18
 The primary goal of PSCs is to identify cases of suspected fraud, develop them thoroughly and in a timely
manner, and take immediate action to prevent improper Medicare payments and recover any overpayments.
19
     ZPICs have the same primary goal as PSCs. PSCs are currently transitioning to ZPICs.


                                                         14
RECOMMENDATIONS

We recommend that CMS:

   •   ensure that contractors implement system edits recommended in our individual reports to:

       o identify high utilization claims for test strips and/or lancets and develop cost-
         effective ways of determining which claims should be further reviewed for
         compliance with Medicare documentation requirements and

       o identify claims for test strips and/or lancets that have overlapping service dates for
         the same beneficiary;

   •   ensure that contractors are enforcing Medicare documentation requirements for claims for
       test strips and/or lancets by monitoring the contractors’ (1) identification of suppliers
       with a high volume of high utilization claims, (2) performance of prepayment reviews of
       those suppliers, and (3) referrals of suppliers to the Office of Inspector General or CMS
       for further review or investigation when necessary; and

   •   consider the results of our reviews when developing and evaluating coverage and
       reimbursement policies related to test strips and lancets.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its written comments on our draft report, CMS concurred with all of our recommendations:

   •   In response to our first recommendation, CMS stated that the four contractors have taken
       actions to implement system edits and that CMS management will track those actions.

   •   In response to our second recommendation, CMS stated that the contractors have initiated
       reviews of glucose testing supplies and continue to work with CMS to develop a cost-
       effective way of addressing the high utilization of those supplies.

   •   In response to our third recommendation, CMS stated that it will consider the results of
       our reviews when developing and evaluating coverage and reimbursement policies
       related to test strips and lancets. CMS noted, however, that certain statutory definitions
       in Title XVIII of the Act may impact its ability to develop policies that perfectly balance
       competing interests.

CMS’s comments are included in their entirety as Appendix B.




                                                15
APPENDIXES
                                                                                                Page 1 of 2


           APPENDIX A: MEDICARE DOCUMENTATION REQUIREMENTS


Documentation for Quantities in Excess of Utilization Guidelines

For a quantity of home blood-glucose test strip and lancet supplies (test strips and lancets) in
excess of utilization guidelines, the Local Coverage Determinations 1 (LCD) require that the
treating physician document in the medical records the specific reason for the additional
supplies.

The LCDs also require that when a durable medical equipment supplier (supplier) refills a
physician’s order for a quantity of test strips and lancets in excess of utilization guidelines, “there
must be documentation in the physician’s records (e.g., a specific narrative statement that
adequately documents the frequency at which the patient is actually testing or a copy of the
beneficiary’s log) or in the supplier’s records (e.g., a copy of the beneficiary’s log) that the
patient is actually testing at a frequency that corroborates the quantity of supplies that have been
dispensed.”

Finally, the LCDs state that the treating physician must have evaluated the patient’s diabetic
control within 6 months before ordering the quantity of test strips and lancets in excess of the
guidelines.

Documentation To Support Refills of Supplies

The Medicare Program Integrity Manual (the Manual), Pub. No. 100-08, chapter 4,
section 4.26.1, states that when a supplier refills an original order, the supplier must contact the
beneficiary before dispensing the refill. Further, the Manual states: “For subsequent deliveries
of refills, the supplier should deliver the [durable medical equipment] product no sooner than
approximately 5 days prior to the end of usage for the current product.”

The LCDs state that the supplier may not dispense test strips and lancets until the beneficiary has
nearly exhausted the previously dispensed supplies. In addition, the beneficiary or the
beneficiary’s caregiver must request the refill of test strips and lancets before the supplier
dispenses supplies to the beneficiary.

Physician Orders

Section 1833(e) of the Social Security Act requires that providers furnish contractors with
necessary information to receive payment for services provided to Medicare beneficiaries. The
Manual, chapter 5, section 5.2.1, requires that the supplier obtain an order from the treating
physician before dispensing supplies to a beneficiary. The Manual, chapter 5, sections 5.2.2 and
5.2.3, provide that when a supplier dispenses items based on a verbal order, the supplier must
have a written order in its records before submitting a claim to the contractor.


1
 Jurisdictions A and B adopted LCD L11530, Jurisdiction C adopted LCD L11520, and Jurisdiction D adopted
LCD L196. Each LCD contains the same documentation requirements.
                                                                                         Page 2 of 2


The LCDs state: “An order for each item billed must be signed and dated by the physician who
is treating the patient’s diabetes, kept on file by the supplier, and made available upon request.”
Further, the LCDs require that the order for test strips and lancets include (1) the specific
frequency of testing, (2) the treating physician’s signature, and (3) the date of the treating
physician’s signature.

Proof-of-Delivery Records

Pursuant to 42 CFR § 424.57(c)(12), suppliers must maintain proof of delivery of durable
medical equipment supplies provided to Medicare beneficiaries. The Manual, chapter 4, section
4.26, requires that suppliers maintain proof-of-delivery documentation in their files for 7 years.
                                                                                                                      Page 1 of3


APPENDIXB: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS



      /   ...
          ' ~,

  (        ~        DEPARTMENT OF HEALTH & HUMAN SERVICES
  ,,~\[-                                                                                       Adl1!illistrato~
                                                                                               WMhingloo. DC 202()1




                 DATE,           MAR 0 2 1011
                 TO: 	          Daniel R. Levinson 

                                Inspector General 


                 FROM: 	        Marilyn Tavenner 

                                Acting Administrator 


                 SUBJECT: 	 Office Qflnspcctor General Draft Report: "Medicare Contractors Lacked
                                Controls to Prevent Millions in Improper Payments for High Utilization Claims
                                for Home 8100d-Glucose Test Strips and Lancets" (A_09_ll.02027)

                 Thank you for the opportunity to review and comment on the Office of Inspector Gener-u's
                 (010) Draft Report titled " Medicare Contractors Lacked Controls to Prevent Millions in
                 Improper Payments for High Utilization Claims for Home Blood-Glucose Test Strips and
                 LancetS" (A-09-11-02027). The CenterS for Medicare & Medicaid Services (eMS) appreciatcs
                 the lime and resources the 010 has utili7.ed in revic\\ing this issue. The OlO's audit focused on
                 paid claims with 2007 dates of service for home blood-glucose strips and lancets processed by
                 the Durable Medical Equipment Medicare Administrative Contractors CDME MACs) for each of
                 the four DME MAC Jurisdictions. The objective was to summarize the results of the individual
                  reviews of the fout DME MACs that process Medicare claims for test stri ps and lancets for
                  Jurisdictions A, B, C, and D.

                  eMS understands the major deficiency noted during the review was that documemation was
                  often insufficient \0 validate the quantity of supplies that exceeded utilization guidelines. The
                  finding that only 97 of the 400 sampled claims were supported in accordance with Medicare
                  documentation requirements confirms CMS' own annual error rate analysis.

                  The OIG estimates the contractors allowed for payment ofS I .2 billion in Medicare Part B claims
                  for test strips andlor lancets for calendar year 2007. Further, the 010 estimates contractors
                  allowed for a total payment ofS484.3 million for high-util ization claims.




                                                                 , " " ." '~<',
                                                                                                      Page 2 of3




 Page 2 - Daniel R. Levinson

 OIG Recommendation 

 Ensure thai contractors implement system edits recommended in our individual reports to: 


     o 	 Identify high ulili"ation claims for test strips andfor lancets and develop cost-effective
         ways of determin ing which claims should be further reviewed for compliance with
         Medicare documentation requirements and;

     o 	 Identify claims for test strips andlor lancets that have overlapping service dates for the
        same beneficiary.

 eMS Res ponse
 eMS concurs with this recommendation. In response to the individual reports disseminated to
 the four DME MACs, actions have been taken and       wm
                                                     be tracked by eMS management. Each
 orlhe DME MACs has a plan for dealing with this widespread problem which does include
 implementing systems edits.

eMS will share this summary report with the DME MACs and continue to encourage them 10 

implement corrective actions related to this issue. 


OIG Recommendation 

Ensure that contractors are enforcing Medicare documentation requirements for claims for test 

strips and/or lancets by monitoring the oontractors' : 


    o 	 Identification of suppliers with a high volwne of high utilization claims;

    o 	 Performance of prepayment reviews of those suppJien;; and

    o 	 Referrals ofsuppliers to the Office of Inspector General or CMS for further review or
        investigation when necessary.

eMS Ue.\pollse
CMS concurs with this recommendation. The DME Mt\Cs have initiated reviews on glucose
lesting supplies and continue 10 work with eMS 10 develop a cost-effective "'ay of add ressing
the high utilization of glucose test strips and supplies. They also implemented several
educational interventions to reinforce the Medicare policy including posting to their Web site the
Dear PhYSician Letters that outline Ihe docwnentalion requirements for physicians. ·Ibe DME
MACs have also conducted extensive provider and supplier education regarding proper coding,
coverage, and documentation requirements for home blood-glucose monitors and supplies.

DIG Recommendation
Consider the results of OUI reviews when developing and evaluating coverage and reimbursement
policies related to test strips and lancets.

eMS Response
eMS concurs with the recommendation. eMS will consider the results ofOIG's reviews when
developing and evaluating coverage and reimbursement policies related 10 test strips and lancets.
However, we would like 10 nOle ihal certain statutory definitions in Title XVIII of the Social
                                                                                                   Page 3 of3




Page 3 - Daniel R. Levinson


Security Act may impact our abi lity to develop policies that perfectly balance these competing
interests.

We appreciate the effort that went into thi s report and look forward to continuing to work with
the OIG on safeguarding the Medicare program.
